TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                          Office of Inspections and Evaluations




                       Follow-Up Review of Controls Over
                         Religious Compensatory Time



                                       August 20, 2014

                           Reference Number: 2014-IE-R009




       This report has cleared the Treasury Inspector General for Tax Administration disclosure
         review process and information determined to be restricted from public release has
                                  been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website       | http://www.treasury.gov/tigta
                                      DEPARTMENT OF THE TREASURY
                                             WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 20, 2014


  MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


  FROM:                         R. David Holmgren
                                Deputy Inspector General for Inspections and Evaluations

  SUBJECT:                      Final Inspection Report – Follow-Up Review of Controls Over
                                Religious Compensatory Time (# IE-14-001)

  This report presents the results of our inspection to determine whether Internal Revenue Service
  (IRS) controls have significantly reduced the number of employees who have excessive religious
  compensatory time (RCT) balances and to determine whether additional controls are required to
  deter or prevent the misuse of RCT. Executive agency employees are allowed to work additional
  hours and then use that time for personal religious beliefs that require the employees’ absence
  from work. The time worked and then taken is referred to as RCT, and this benefit allows
  employees to participate in religious observances without using annual leave or leave without
  pay.

  Synopsis
  The IRS has implemented corrective actions that have improved controls over the use of RCT.
  Between June 2010 and November 2013, the IRS reduced the number of employees with RCT
  balances and those with excessive RCT balances by approximately 51 and 68 percent,
  respectively.1 Overall, the percentage of IRS employees with RCT balances has been reduced to
  less than 1 percent of all employees. Additionally, we found that between Fiscal Years 2009 and
  2013, the IRS reduced the costs of payments to employees separating with RCT balances by
  approximately 39 percent. For the same time period, the debts owed to the IRS by former
  employees who have separated with advanced RCT balances decreased by 28 percent.




  1
    The IRS defines an excessive RCT balance as 80 or more hours, either positive (earned) or negative (advanced)
  leave.
                                   Follow-Up Review of Controls
                                 Over Religious Compensatory Time



Despite the improvements in controls over the use of RCT, we identified a relatively small
number of employees with high balances for both advanced RCT and advanced sick leave.
While an employee can accumulate both advanced RCT and advanced sick leave, high balances
of both could indicate that managers and employees are using RCT to circumvent Federal
Government and agency leave policies and procedures by authorizing advanced RCT in lieu of
sick leave. In such cases, IRS managers should investigate the issue further as required by IRS
policies and procedures. In the event that the activity may require a more thorough investigation
or is potentially criminal, the Treasury Inspector General for Tax Administration Office of
Investigations should be contacted.

Response
IRS management agreed with the results of our review and provided additional information
related to previous TIGTA recommendations outlined in Appendix IV. As a result, we revised
Appendix IV to document the results of negotiations between the IRS and the National Treasury
Employees Union. Management’s complete response to the memorandum is included in
Appendix V.
Please contact me or Kevin P. Riley, Director, Office of Inspections and Evaluations, if you have
questions.




                                                                                                2
                                                 Follow-Up Review of Controls
                                               Over Religious Compensatory Time




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Fewer Employees Have Excessive Religious Compensatory
          Time Balances ............................................................................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Status of Corrective Actions Related to
          Previous Recommendations .......................................................................... Page 13
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
              Follow-Up Review of Controls
            Over Religious Compensatory Time




              Abbreviations

AWSS    Agency-Wide Shared Services
ESS     Employee Support Services
FY      Fiscal Year
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
NTEU    National Treasury Employees Union
RCT     Religious Compensatory Time
TIGTA   Treasury Inspector General for Tax Administration
TIMIS   Treasury Integrated Management Information System
                                          Follow-Up Review of Controls
                                        Over Religious Compensatory Time




                                            Background

Title 5 United States Code Section 5550a and its implementing regulations, Title 5 Code of
Federal Regulations Sections 550.1001 and 550.1002 (2010),1 allow executive agency employees
to work additional hours and then use that time for personal religious beliefs that require the
employees’ absence from work. The time worked and then taken is referred to as religious
compensatory time (RCT), and this benefit allows employees to participate in religious
observances without using annual leave or leave without pay.
Although the U.S. Office of Personnel Management has the authority to prescribe regulations
related to the use of RCT, each executive agency head also has the authority to prescribe
regulations related to the use of RCT that provide for such exceptions as may be necessary to
efficiently carry out the mission of the agency or agencies involved. Each agency should have
adequate controls in place to ensure that an employee’s request for RCT is for a religious
purpose and that an employee is allowed to accumulate only the RCT hours required to make up
for previous or planned absences from work for religious observances.
Unlike regular compensatory time, which may be granted in lieu of overtime on an hour-for-hour
basis and must be used by the end of the 26th pay period from which it was earned, RCT does not
expire and must only be earned and used for planned religious observances. An RCT balance
can be either negative or positive. A negative balance, referred to as advanced RCT, occurs
when an employee takes time off from work for a religious observance before working the extra
hours required to make up for time away from work.2 A positive balance occurs when an
employee works extra hours to accumulate RCT before taking time off for a religious
observance.
In February 2009, the Treasury Inspector General for Tax Administration (TIGTA) reported that
86 Internal Revenue Service (IRS) employees had accumulated excessive RCT balances as a
result of inadequate controls over the use of RCT.3 The IRS defines an excessive RCT balance
as 80 or more hours, either accumulated or advanced. We made several recommendations to
improve controls over RCT use and reduce the potential for its widespread abuse. The IRS
Human Capital Officer and the Chief, Agency-Wide Shared Services (AWSS), concurred with



1
  Federal Employees Flexible and Compressed Work Schedules Act of 1978, Section 401, 95 Pub. L. No. 390,
92 Stat. 762.
2
  Throughout the report, we use the absolute value for advanced RCT balances; therefore, the balances will appear
as positive numbers.
3
  TIGTA, Ref. No. 2009-IE-R002, To Prevent the Possible Widespread Abuse of Religious Compensatory Time,
Additional Controls Are Needed (Feb. 2009).
                                                                                                            Page 1
                                         Follow-Up Review of Controls
                                       Over Religious Compensatory Time



our recommendations and agreed to implement corrective actions to improve controls over the
use of RCT.
In June 2011, a follow-up inspection revealed that the IRS had not fully implemented all the
agreed-upon corrective actions related to our previous recommendations4 because the
implementation of those corrective actions was contingent on the outcome of negotiations with
the National Treasury Employees Union (NTEU).5 Nonetheless, between February 2008 and
June 2010, the overall number of IRS employees with RCT balances decreased by approximately
33 percent, and the number of employees with excessive RCT balances decreased by nearly
37 percent. We also found that only about 2 percent of all IRS employees had RCT balances,
and 81 percent of those employees had RCT balances below 20 hours. While the issue of
excessive balances was not widespread within the IRS, the accumulation of excessive RCT
balances increases the risk that employees may use the time for unintended purposes. This
includes earning RCT and routinely not using it with the intention of receiving a lump sum
payment for the balance upon separation or retirement; using RCT in place of annual or sick
leave; or allowing employees to earn RCT in lieu of overtime, compensatory time, or credit
hours.
In November 2013, the AWSS Office of Employee Support Services (ESS) notified our office
about continued potential abuses related to RCT use. The ESS also noted a relationship between
advanced RCT balances and advanced sick leave for some employees. The ESS asked the
TIGTA to review this issue.
The TIGTA conducted this follow-up review to determine whether the IRS has reduced the risk
that IRS employees misuse RCT. This review was performed during the period January 2014
through May 2014 in the IRS Human Capital Office (responsible for IRS-wide employee pay
and benefits policies) and AWSS offices at the IRS National Headquarters in Washington, D.C.,
and Memphis, Tennessee. We conducted this inspection in accordance with the Council of the
Inspectors General for Integrity and Efficiency Quality Standards for Inspections. Detailed
information on our objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
    TIGTA, Ref. No. 2011-IE-R004, Follow-Up Review of Controls Over Religious Compensatory Time (June 2011).
5
    The NTEU is the union that represents IRS bargaining unit employees.
                                                                                                      Page 2
                                        Follow-Up Review of Controls
                                      Over Religious Compensatory Time




                                     Results of Review

Since our initial report, the IRS has enhanced controls to better manage the use of RCT and
continues to reduce the overall number of employees with RCT balances and the number of
employees with excessive RCT balances. Despite these improvements, there remains a risk that
RCT may be used for unintended purposes.

Fewer Employees Have Excessive Religious Compensatory Time
Balances
The IRS implemented several corrective actions to improve controls over the use of RCT.
Among those controls are that employees should submit a written request for RCT 15 days in
advance and should agree to a plan that documents the time to be worked in advance or after the
event to cover the time away from work. The employee’s manager may deny the request for
RCT if the employee’s presence on a job at the time in question is deemed necessary or no
reasonable opportunities are foreseen for the employee to timely repay the RCT advanced.
Generally, any advanced RCT should be repaid within 120 days. Additionally, the ESS unit
provides semiannual reports to senior executives of each operating division and business unit
that document employees with RCT balances that are excessive or have not decreased within the
previous six-month review period. However, some controls do not yet apply to IRS bargaining
unit employees (approximately 79 percent of IRS employees)6 because these controls must be
negotiated with the NTEU prior to implementation and inclusion in the next IRS and NTEU
National Agreement.7 The status of the corrective actions proposed in response to our prior
reviews is shown in Appendix IV.
Having an RCT balance in and of itself does not create a problem. However, we believe that
employees with higher RCT balances may be more likely than those with smaller balances to use
RCT for nonreligious purposes. Potential misuse includes earning RCT and routinely not using
it with the intention of receiving a lump sum payment for the balance upon separation or
retirement; using RCT instead of annual or sick leave; or earning RCT in lieu of overtime,
compensatory time, or credit hours.
Between June 2010 and November 2013, we found that the number of IRS employees with RCT
balances declined by approximately 51 percent (from 1,899 to 936 employees). More
importantly, the number of employees with excessive RCT balances declined by approximately


6
 As of November 2013, bargaining unit employees represented 79 percent (74,809 of 94,217) of all IRS employees.
7
 The provisions of the 2012 National Agreement II covers all IRS bargaining unit employees represented by the
NTEU.
                                                                                                        Page 3
                                                Follow-Up Review of Controls
                                              Over Religious Compensatory Time



68 percent (from 56 to 18 employees). As of November 2013, approximately 79 percent (737 of
936) of IRS employees with RCT had balances between 1 and 19 hours, while less than 2 percent
(18 of 936 employees) had excessive balances. Figure 1 shows the distribution of RCT balances
as of June 2010 and November 2013 and highlights the decline in each group.
   Figure 1: Comparison of RCT Balances From June 2010 and November 2013
                                   2,000

                                                             56
                                                        36
                                                   80

                                   1,500    181
                                                                                         Hours of 
         Employees in Each Group




                                                                                           RCT
                                                                                           80+
                                                                                           60‐79
                                   1,000
                                                                                           40‐59
                                           1,546                                    18
                                                                               26          20‐39
                                                                          56
                                                                     99                    1‐19

                                    500
                                                                    737




                                      0
                                           June 2010              November 2013
       Source: TIGTA analysis of IRS time and attendance records.

Overall, the percentage of IRS employees with RCT balances has declined to less than 1 percent
of employees, and the percentage of employees with excessive balances is a fraction of 1 percent
(see Figure 2).




                                                                                                     Page 4
                                          Follow-Up Review of Controls
                                        Over Religious Compensatory Time



                    Figure 2: Decrease in Employees With RCT Balances

                                                                     June 2010         November 2013

          Total Number of Employees                                       107,728                94,217

          Employees With RCT Balances                                        1,899                   936

              Percent of Total Population                                   1.76 %               0.99 %

          Employees With Excessive RCT Balances                                  56                   18

              Percent of Employees With RCT Balances                        2.95 %               1.92 %

              Percent of Total Population                                   0.05 %               0.02 %
       Source: TIGTA analysis of Treasury Integrated Management Information System (TIMIS) and
       IRS time and attendance records.8

Large amounts of advanced RCT and advanced sick leave could indicate the
misuse of RCT
Unless special circumstances exist, managers may authorize up to 80 hours of advanced RCT.
Advanced RCT should be repaid by the appropriate amount of compensatory overtime work
within a reasonable amount of time, which generally is within 120 days. Additionally, a
manager may approve up to 30 days (the equivalent to 240 hours) of advanced sick leave for a
full-time employee with a serious health condition, to care for a family member with a serious
health condition, for purposes relating to the adoption of a child, or to care for a covered service
member (member or veteran of the Armed Forces) with a serious injury or illness. There must
be a reasonable indication that the employee will return to duty after his or her illness. When it
is known or reasonably expected that the employee will separate during the year, the total
amount of sick leave advanced may not exceed the amount that can be earned prior to the
anticipated separation.
The ESS unit provides semiannual reports to senior executives of each operating division and
business unit that document employees with RCT balances that are excessive or have not
decreased within the previous six-month review period. The ESS identified several employees
who had relatively high balances for both advanced RCT and advanced sick leave. The ESS
staff expressed the concern that there is a risk that some managers and employees are using RCT


8
 The TIMIS contains payroll data for IRS employees per pay period, e.g., post of duty, salary, grade, employee
addresses, etc.
                                                                                                           Page 5
                                                         Follow-Up Review of Controls
                                                       Over Religious Compensatory Time



to circumvent Federal Government and agency leave policies and procedures by authorizing
advanced RCT in lieu of sick leave.
We identified 106 IRS employees with advanced RCT balances equal to or greater than 20 hours
as of the end of Fiscal Year (FY) 2013 and found that 39 of the 106 employees (approximately
37 percent) had both advanced RCT and advanced sick leave. The advanced RCT balances for
these employees ranged from 20 to 125 hours, and their advanced sick leave balances ranged
from 1 to 240 hours (see Figure 3).
    Figure 3: Relationship Between Advanced RCT and Advanced Sick Leave

                                  240

                                  220

                                  200

                                  180

                                  160
     Advanced Sick Leave Hours 




                                  140

                                  120

                                  100

                                  80

                                  60

                                  40

                                  20

                                   0
                                        0   20   40   60   80   100    120   140     160   180   200   220   240
                                                                Advanced RCT Hours
  Source: TIGTA analysis of TIMIS and IRS time and attendance data, as of the end of FY 2013.

Twenty-four of the 39 employees (approximately 62 percent) had advanced sick leave balances
equal to or greater than 80 hours, and their outstanding advanced sick leave balances ranged
from 80 to 240 hours. Three of the 24 employees had excessive advanced RCT balances and
nine had advanced RCT balances from 40 to 79 hours (See Figure 4).


                                                                                                              Page 6
                                               Follow-Up Review of Controls
                                             Over Religious Compensatory Time



     Figure 4: Summary Grouped by Advanced RCT and Advanced Sick Leave

                               30
                                                                                                   24
                               25

                               20
                   Employees




                               15

                               10
                                                                                    6
                                        5
                                5
                                                     2              2
                                0
                                    Sick Leave   Sick Leave    Sick Leave       Sick Leave      Sick Leave
                                      1 to 19     20 to 39      40 to 59         60 to 79       80 or more
           RCT 80 or More               0            0              0               1                3
           RCT 40 to 79                 1            0              0               3                9
           RCT 20 to 39                 4            2              2               2               12
    Source: TIGTA analysis of TIMIS and IRS time and attendance records.

The existence of high balances of advanced RCT and advanced sick leave could indicate that
RCT is being misused. Specifically, managers may be approving advanced RCT for unintended
purposes or ignoring procedures that limit the amount of advanced RCT and generally require
repayment of RCT within 120 days. Intentionally falsifying an official record, including time
and attendance records, would violate the Department of the Treasury Employee Rules of
Conduct (31 Code of Federal Regulation Section 0.208). Any employee or manager who
becomes aware of matters involving potential misconduct is required to report it to the
appropriate manager. The managers in turn are required to gather information related to
potential misconduct and follow the Administrative/Disciplinary Issues procedures outlined in
Internal Revenue Manual (IRM)9 6.751, Discipline and Disciplinary Actions.10 In the event that
the activity is potentially criminal or the IRS requires additional investigative capabilities11 for
matters related to noncriminal or administrative misconduct,12 the TIGTA Office of



9
  The IRM is the IRS’s primary source of instructions to its employees relating to the administration and operation
of the IRS. The manual contains the directions employees need to carry out their operational responsibilities.
10
   IRM 675.1.12 (Nov. 4, 2008).
11
   Additional investigative capabilities include obtaining affidavits or sworn statements and securing other evidence
not customarily available to IRS management during the course of their official duties.
12
   IRM 675.1.13 (Nov. 4, 2008).
                                                                                                              Page 7
                                          Follow-Up Review of Controls
                                        Over Religious Compensatory Time



Investigations should be contacted.13 IRS employees may also anonymously report allegations of
fraud, waste, abuse, and mismanagement to the TIGTA Hotline.14

The cost and risk posed by separating employees with excessive balances is
declining
The IRS must pay an employee who separates from the IRS with an RCT balance at the rate of
his or her basic pay at the time the work was performed. We found that overall there has been a
reduction in the number of employees separating from the IRS with excessive RCT balances and
a reduction in the number of overall RCT hours paid for by the IRS. While the total estimated
amount paid out annually fluctuated from year to year, the total annual payments declined from
$80,012 to $49,184 between FY 2009 and 2013 (a decline of nearly 39 percent).
                           Figure 5: Amounts Paid to Employees
                       Who Separated From the IRS With RCT Balances

                                                                     Total
                          Employees
                            With                                       Estimated         Percentage
                          Excessive                                     Amount           Change in
                           Balances     Employees        Hours           Paid15         Amount Paid

            FY 2009            3            74         1,427.00       $ 80,012
            FY 2010            6            60         1,900.00       $ 102,152              + 27.7 %
            FY 2011            3            57         1,475.25       $ 84,575               – 17.2 %
            FY 2012            5            61         1,770.50       $ 105,052              + 24.2 %
            FY 2013            1            50           857.00       $ 49,184               – 53.2 %
                           Percentage of Change Between FYs 2009 and 2013                    – 38.5 %
          Source: TIGTA analysis of TIMIS data as of September 2013.

Conversely, if an employee separates from the IRS with an advanced RCT balance, the IRS
should subtract the amount owed for the advanced RCT balance from the final payments owed to
the separating employee and, if necessary, establish a debt owed by the separating employee to
the IRS for any remaining balance. We found that between FY 2009 and FY 2013, only


13
   IRM 675.1.13 (Nov. 4, 2008).
14
   http://www.treasury.gov/tigta/contact_report.shtml or by telephone at 1 (800) 366-4484.
15
   Due to inconsistencies in how the IRS and the National Finance Center store and categorize data for payment of
RCT hours to separated employees, an estimate of the amount paid out is provided. The estimate is computed by
multiplying the number of hours of RCT at the time of separation by the employee’s hourly rate at the time of
separation.
                                                                                                            Page 8
                                      Follow-Up Review of Controls
                                    Over Religious Compensatory Time



one employee separated with an excessive advanced RCT balance. Overall, the number of
employees separating from the IRS with advanced balances has decreased by about 49 percent
from FY 2009 to 2013, and the total amount owed has remained relatively low and decreased
from $14,354 to $10,339 (about 28 percent).
                     Figure 6: Debts Owed by Employees Who
                Separated From the IRS With Advanced RCT Balances

                                                                Total

                       Employees
                         With                                                    Percentage
                       Excessive                                Estimated        Change in
                        Balances     Employees      Hours      Amount Owed      Amount Owed

          FY 2009           0            43          483.25      $   14,354
          FY 2010           1            35          448.50      $   13,646         – 4.9 %
          FY 2011           0            44          262.00      $      8,613      – 36.9 %
          FY 2012           0            29          337.25      $   10,697        + 24.2 %
          FY 2013           0            22          274.50      $   10,339         – 3.4 %
                          Percentage of Change Between FY 2009 and 2013            – 27.9 %
        Source: TIGTA analysis of TIMIS data as of September 2013.

Compared to the IRS’s total annual budget of over $11 billion, the amounts paid to or owed by
employees are minimal, and the potential financial risk to the IRS decreases as controls over the
RCT program are implemented and increasingly adhered to.




                                                                                              Page 9
                                         Follow-Up Review of Controls
                                       Over Religious Compensatory Time



                                                                                             Appendix I

           Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether IRS controls have significantly reduced
the number of employees who have excessive RCT balances and to determine whether additional
controls are required to deter or prevent the misuse of RCT. To accomplish this objective, we:
I.        Determined whether the IRS has significantly reduced the number of employees with
          excessive RCT balances.
          A. Prepared a trend analysis of RCT charges from June 2010 through November 2013.
          B. Determined the financial impact of employees who separated from the IRS with RCT
             balances.
II.       Determined whether some employees and managers may be using RCT for unintended
          purposes.
          A. For those employees with longstanding, excessive advanced RCT balances,
             determined whether there is a correlation between advanced RCT and advanced sick
             leave.
          B. In cases for which a correlation existed, gathered additional information from time
             and attendance records and interviews to determine whether the cases should be
             referred to the TIGTA Office of Investigations.
III.      Interviewed officials in the Human Capital Office to determine if the IRS plans to
          negotiate with the NTEU1 the unimplemented corrective actions (for bargaining unit
          employees) that were agreed upon during the TIGTA’s last follow-up review.2




1
    The NTEU is the union that represents IRS bargaining unit employees.
2
    TIGTA, Ref. No. 2011-IE-R004, Follow-Up Review of Controls Over Religious Compensatory Time (June 2011).
                                                                                                     Page 10
                                   Follow-Up Review of Controls
                                 Over Religious Compensatory Time



                                                                    Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
John L. da Cruz, Lead Program Analyst




                                                                         Page 11
                                 Follow-Up Review of Controls
                               Over Religious Compensatory Time



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
IRS Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Director, Workforce Relations OS:HC:R
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       IRS Human Capital Officer OS:HC




                                                                        Page 12
                                          Follow-Up Review of Controls
                                        Over Religious Compensatory Time



                                                                                                Appendix IV

                     Status of Corrective Actions
                Related to Previous Recommendations

 Synopsis of TIGTA Recommendations and IRS Corrective Action                                     Status

1. The IRS Human Capital Officer should modify the IRS RCT                             Closed –
   procedures to require that all employees (bargaining unit and                       Recommendation Not
   non-bargaining unit) repay advanced RCT before a manager can                        Implemented.
   approve employees’ voluntary requests to earn overtime,
   compensatory time, or credit hours.1 (Recommendation 1 of Ref.
   No. 2011-IE-R004)2

    The IRS initially agreed with this recommendation and revised IRS
    policy and stated this requirement in IRM 6.550.1.7.1,3 but it was
    not implemented for bargaining unit employees pending
    negotiations between the IRS and the NTEU.4
    The IRS and NTEU completed negotiations and this
    recommendation will not be implemented in the new National
    Agreement. The IRS will not implement this corrective action for
    bargaining unit employees and will subsequently remove the current
    requirement for non-bargaining unit employees to repay advanced
    RCT before being approved to earn overtime, compensatory time, or
    credit hours.




1
  This recommendation was redesigned and reintroduced in the 2011 follow-up review in order to enhance
corrective actions previously implemented by the IRS and to specifically include bargaining unit employees.
2
  TIGTA, Ref. No. 2011-IE-R004, Follow-Up Review of Controls Over Religious Compensatory Time (June 2011).
3
  The IRM is the IRS’s primary source of instructions to its employees relating to the administration and operation
of the IRS. The manual contains the directions employees need to carry out their operational responsibilities.
4
  The NTEU is the union that represents IRS bargaining unit employees.
                                                                                                           Page 13
                                          Follow-Up Review of Controls
                                        Over Religious Compensatory Time




 Synopsis of TIGTA Recommendations and IRS Corrective Action                                    Status

2. The IRS Human Capital Officer should modify the IRS RCT                            Closed – Completed.
   procedures to require that all employees (bargaining unit and
   non-bargaining unit) submit written requests to earn or use RCT and
   should develop a standard form for requesting, authorizing, and
   documenting the use of RCT.5 (Recommendation 2 of Ref.
   No. 2011-IE-R004)

    The IRS agreed with this recommendation and revised IRM 6.550.1
    to state that an employee should submit a written request to take
    compensatory time off for a specific religious observance. This
    requirement previously applied only to non-bargaining unit
    employees.
    The IRS and NTEU completed negotiations and this requirement
    will go into effect in the new National Agreement.

3. The IRS Human Capital Officer should require that all managers                     Closed – Partially
   and timekeepers receive mandatory training on the revised                          Implemented.
   procedures and responsibilities associated with RCT.                               No further action
   (Recommendation 3 of Ref. No. 2011-IE-R004)                                        planned.

    The IRS requires that all managers receive mandatory training on
    the revised procedures and responsibilities associated with RCT.
    Timekeepers are not required, but are encouraged, to complete the
    training.




5
 This recommendation was redesigned and reintroduced in the 2011 follow-up review in order to enhance
corrective actions previously implemented by the IRS and to specifically include bargaining unit employees.
                                                                                                          Page 14
                                         Follow-Up Review of Controls
                                       Over Religious Compensatory Time




 Synopsis of TIGTA Recommendations and IRS Corrective Action                                    Status

4. Ensure that all IRS managers and employees receive training on IRS                 Closed – Completed.8
   time and attendance policies related to all types of leave to increase
   awareness of possible abuse and ensure proper administration of not
   only RCT but also of all other types of leave and hours of duty.
    This training should also reference supervisors’ and managers’
    Federal Managers’ Financial Integrity Act6 responsibilities.
    (Recommendation 1 of Ref. No. 2009-IE-R002)7

    IRS management agreed with the recommendation and completed a
    training module specifically related to RCT that provides detailed
    guidance on how RCT is to be earned and used. The training is only
    mandatory for new front-line managers; it is not mandatory for all
    managers and employees.

5. Modify IRS RCT procedures to require that all requests for RCT be Closed – Completed.9
   submitted in writing before any RCT is earned or taken. The request
   should include: the dates and number of hours requested, a brief
   explanation of the personal belief that requires the employee to
   abstain from work, the time requested, and the dates and times the
   employee will repay the hours used. (Recommendation 2 of Ref.
   No. 2009-IE-R002)

    IRS management agreed with the recommendation and will require
    employees to submit written requests for RCT with the pertinent
    information.


6
  Federal Managers’ Financial Integrity Act of 1982 (31 U.S.C. §§ 1105, 1113, and 3512) requires agencies to
establish internal controls and financial systems that provide reasonable assurance that the three objectives of
internal control are achieved: effectiveness and efficiency of operations, compliance with applicable laws and
regulations, and reliability of financial reporting.
7
  TIGTA, Ref. No. 2009-IE-R002, To Prevent the Possible Widespread Abuse of Religious Compensatory Time,
Additional Controls Are Needed (Feb. 2009).
8
  This recommendation was superseded by the recommendation and corrective actions listed in item 3 of this table.
The recommendation was redesigned and reintroduced in the 2011 follow-up review in order to enhance corrective
actions previously implemented by the IRS and to specifically include bargaining unit employees.
9
  This recommendation was superseded by the recommendation and corrective actions listed in item 2 of this table.
The recommendation was redesigned and reintroduced in the 2011 follow-up review in order to enhance corrective
actions previously implemented by the IRS and to specifically include bargaining unit employees.
                                                                                                          Page 15
                                         Follow-Up Review of Controls
                                       Over Religious Compensatory Time




 Synopsis of TIGTA Recommendations and IRS Corrective Action                                   Status

6. Strengthen procedures to require that managers (a) not allow                      Closed – Completed.
   employees with existing positive RCT balances to accumulate
   additional RCT unless they provide the required written request and
   then (b) allow the employees to earn only enough time to cover the
   specific observance in the request. (Recommendation 3 of Ref.
   No. 2009-IE-R002)

     The IRS agreed with this recommendation and revised IRM 6.550.1
     to emphasize that additional RCT may not be approved if existing
     RCT balances have not been used, repaid, or scheduled for use or
     repayment.
     This requirement previously did not apply to bargaining unit
     employees. However, the decision to require that all employees
     (bargaining unit and non-bargaining unit) submit written requests to
     earn or use RCT coupled with the guidance outlined in the
     2012 National Agreement II will essentially address our
     recommendation.

7. Modify the IRS RCT procedures to require that advanced RCT                        Closed –
   balances must be repaid before approving employees’ voluntary                     Recommendation Not
   requests to earn overtime, compensatory time, or credit hours.                    Implemented.10
   (Recommendation 4 of Ref. No. 2009-IE-R002)

     IRS management somewhat agreed with the recommendation and
     revised its policies to state that employees should repay advanced
     RCT before a manager can approve employees’ voluntary requests
     to earn overtime, compensatory time, or credit hours.




10
  This recommendation was superseded by the recommendation and corrective actions listed in item 1 of this table.
The recommendation was redesigned and reintroduced in the 2011 follow-up review in order to enhance corrective
actions previously implemented by the IRS and to specifically include bargaining unit employees.
                                                                                                         Page 16
                                         Follow-Up Review of Controls
                                       Over Religious Compensatory Time




 Synopsis of TIGTA Recommendations and IRS Corrective Action                                 Status

8. Formalize a procedure to have the AWSS staff produce a                          Closed – Completed.
   semiannual listing of employees with RCT balances that are
   excessive or have not decreased within that six-month review
   period. The list should be provided to the senior executive of each
   operating division and business unit. Within 60 days of receiving
   the list, each senior executive will provide a report to the IRS
   Human Capital Officer on steps to be taken to ensure that managers
   prepare plans to address the excessive balances.
   (Recommendation 5 of Ref. No. 2009-IE-R002)

   The IRS prepares a semiannual listing of employees with RCT
   balances that are excessive or have not decreased within that
   six-month review period. The listing is provided to the senior
   executive of each operating division and business unit.
Source: Summary based on reviews of the IRS’s IRM and the 2012 National Agreement II and interviews with IRS
employees.




                                                                                                      Page 17
              Follow-Up Review of Controls
            Over Religious Compensatory Time



                                               Appendix V

Management’s Response to the Draft Report




                                                    Page 18
  Follow-Up Review of Controls
Over Religious Compensatory Time




                                   Page 19
